     Department of Homeland Security





         FEMA Should Recover $129,248 of Public 

      Assistance Grant Funds Awarded to City of Palm 

     Beach Gardens, Florida – Hurricane Wilma Activities 





DA-13-16                                           June 2013

                       ~B~~~OFFICE
                       y.aeY~~ r


                               ~
                                    OFHCE OF INSPECTOR
                                             INSPECTOR GENERAL
                                         Department of Homeland Security
                                          Washington, DC 20528 / www.oig.dhs.gov

                                                     JUN 4 2013
                                                     JUN


MEMORANDUM FOR:
           FOR:                     Major P. (Phil)
                                    Major P. (Phil) May
                                                    May
                                    Regional
                                    Regional Administrator,
                                             Administrator, Region IV
                                    Federal Em
                                    Federal          nc
                                                   enc   anagement A  ~ncy
                                                                        ncy

FROM:
FROM:                               John V. Kel
                                    Assistant I
                                    Assistant     ector General
                                                               ~
                                    Office of   mergency Man~gement Oversight
                                    Office of Emergency Management  Oversight

SUBJECT:
SUBJECT:                            FEMA Should
                                    FEMA  Should Recover $129,248 of Public Assistance
                                    Grant Funds Awarded
                                    Grant Funds  Awarded to City of Palm
                                                                    Polm Beach Gardens,
                                                                               Gordens, Florida
                                                                                        Florida-—
                                    Hurricone Wilma Activities
                                    Hurricane
                                          Disasters Number 1609
                                    FEMA Disasters          1609-DR-FL
                                                                 -DR-FL
                                    Audit Report
                                    Audit Report  Number DA-13-16
                                                         DA-13-16

We   audited Public
We audited    Public Assistance
                     Assistance grant
                                 grant funds
                                       funds awarded #o
                                                      to the City of Palm Beach Gardens,
                                                                                Gardens, Florida
(City) (PIPS
(City) (FIPS Code 099-
                   099-54075-00).                       was to determine whether the City
                       54075-00). Our audit objective was
accounted
accounted    for and
                 and expended
                     expended   federal
                                Federal  Emergency Management
                                                   Management              (FEMA) grant funds
                                                                   Agency(FEMA)         funds
according to Federal regulations and FEMA guidelines.
                                              guidelines.

The City
The City received
         received a   Public Assistance
                    a Public                             $3.3 million from the Florida Division of
                             Assistance grant award of $3.3
Emergency Management (State),
Emergency                    (State), aa FEMA grantee,
                                              grantee, for damages resulting from
                                                                              from Hurricane Wilma,
                                                                                               Wilma,
which  occurred
which occurred in in October 2005.
                              2005. The award provided 100 percent FEMA fundingfunding for debris
removal  activities,
removal activities,  emergency
                     emergency    protective  measures,
                                              measures,  and  permanent  repairs to buildings and
otherfacilities.
other facilities. The award consisted of 9  9 large projects and 16 small projects!
                                                                          projects.1

We  audited four
We audited   four large
                  large projects and six small
                        projects and     small projects with awards totaling $2.5
                                                                             $2.5 million (see
                                                                                          (see
Exhibit, Schedule of Projects Audited).
Exhibit,                      Audited). The audit covered the period October 24, 14, 2005,
                                                                                     1005, to
April 16, 2012,
April 16, 2012, during  which the City received $2.5
                                                $2.5 million of FEMA  funds.
                                                                     funds. AtAt the time of our
audit, the City
audit, the City had completed work on all large projects and had submitted final
                had completed                                                 final claims to the
State for large project expenditures.
                        expenditures.

We   conducted this
We conducted     this performance
                      performance audit
                                    audit between April 2012
                                                        2012 and February 2013
                                                                            2013 pursuant to the
In5pector General
Inspector  General Act ofof 1978,    ~mended, according to generally accepted
                            1978, as amended,                        ~ccepted government
~uditing  standards.   Those
auditing standards. Those     standards require that
                                                that we plan and perform  the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings
sufficient,                                                             findings and conclusions
                                                                                      conclusions
based upon
based             ~udit objective.
        upon our audit  objective. We believe that the evidence obtained provides a reasonable
              findings and conclusions
basis for our findings       concluSions based upon our audit objective.
                                                              objective. To conduct this audit,
                                                                                          audit, we
                                                                                                 we

   Feder.1 regulations
11 Federal regulation, in effect
                          elf",t "t
                                 at the time
                                        tim e of Hurricane
                                                 Hurric,ne Wilm, ,et the large
                                                           Wilma set     I..ge project threshold
                                                                                       thr.,hold .t
                                                                                                 at $57,500.
                                                                                                    $S7.S00
                             OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


applied the statutes, regulations, and FEMA policies and guidelines in effect at the time of the
disaster.

We judgmentally selected project costs (generally based on dollar value); interviewed City,
State, and FEMA personnel; reviewed the City’s procurement policies and procedures; reviewed
applicable Federal regulations and FEMA guidelines; and performed other procedures considered
necessary under the circumstances to accomplish our audit objective. We did not assess the
adequacy of the City’s internal controls applicable to its grant activities because it was not
necessary to accomplish our audit objective. However, we gained an understanding of the
City’s method of accounting for disaster-related costs and its policies and procedures for
administering activities provided for under the FEMA award.


                                       RESULTS OF AUDIT

FEMA should recover $129,248 of grant funds awarded to the City. Although the City generally
accounted for FEMA projects according to Federal regulations and FEMA guidelines, its claim
included $129,248 of ineligible costs that were covered by insurance or by another Federal
agency, or were unsupported.

Finding A: Duplication of Benefits

The City’s claim included $47,540 for activities covered by insurance proceeds and another
Federal agency. Section 312(a) of the RobertfT.fStaffordfDisasterfRelieffandfEmergencyf
AssistancefAct, as amended, states that no entity will receive assistance for any loss for which
financial assistance has already been received from any other program, from insurance, or from
any other source. We question the $47,540 as follows:

   •	 The City’s claim included $45,372 of project costs that were not reduced for insurance
      proceeds. The City received $501,758 of insurance proceeds to cover damages to
      facilities and applied $40,406 of the proceeds to reduce FEMA project costs. We
      reviewed the schedule of properties insured and the statement of losses that contained
      information related to the facility location, building number, building values for
      structure and contents, losses claimed under each facility, adjustments for insurance
      deductibles and depreciation, and insurance losses paid. Based on our analysis of the
      documentation, we determined that an additional $45,372 of proceeds was for
      damages sustained to the facilities, but was not used to offset FEMA project costs. City
      officials said that they gave all insurance information to a FEMA representative who
      determined the amount of insurance proceeds that was applied to the projects. We
      question the $45,372 as shown in table 1.




www.oig.dhs.gov                             2	                                            DA-13-16 

                             OFFICE OF INSPECTOR GENERAL 

                                     Department of Homeland Security



                       Table 1. Questioned Costs – Insurance Recoveries 

                         Project                                Questioned
                        Number          Damaged Facility          Costs
                          7372    Aquatic Complex                    10,362
                          7498    Marisol Park                       15,362
                          7677    PGA National Park Facilities        5,585
                          7864    Gardens Park                       14,063
                        Total                                       $45,372

   •	 The City’s claim under Project 57 included $2,168 of debris removal costs reimbursed by
      the Federal Highway Administration. This occurred because the FEMA inspector, during
      the closeout process, credited the project with an incorrect amount for Federal Highway
      Administration proceeds. The Federal Highway Administration reimbursed the City
      $147,891 for debris work performed on Federal-aid roads. The reimbursement was for
      hauling and grinding 8,772 cubic yards of vegetative debris and disposing of 2,924
      cubic yards of vegetative and mixed debris. However, the inspector deducted costs
      associated with hauling and grinding 8,652.92 cubic yards of vegetative debris, and
      disposing of 2,829 cubic yards of vegetative and mixed debris. This error resulted in a
      shortfall of $2,168 that was not credited to the project. Therefore, we question the
      $2,168.

City officials disagreed with our insurance finding, saying that a majority of the costs questioned
were for damages covered by the City’s insurance deductible, not insurance proceeds. They
also said that the $2,168 of costs questioned under bullet 2 was for debris removal from
railways, not Federal-aid roads. However, they did not provide us with adequate documentation
to support their assertions.

Finding B: Supporting Documentation

The City’s claim under Project 57 included $81,708 of unsupported contract charges for debris
removal activities. Cost Principles at 2 CFR 225, CostfPrinciplesfforfState,fLocal,fandfIndianf
TribalfGovernments, Appendix A, Section C.1.j, state that a cost must be adequately
documented to be allowable under Federal awards.

The City hired a contractor to collect and dispose of disaster-related vegetative, and
construction and demolition debris. The contractor collected 121,422 cubic yards of debris,
which included 112,130 cubic yards of vegetative debris and 9,292 cubic yards of construction
and demolition debris. The contractor reduced the vegetative debris at a temporary site and
hauled the remaining mulch to a landfill. The construction and demolition debris was hauled
directly to a landfill owned by the Palm Beach County Solid Waste Authority. The contractor
billed the City a total of $1,814,998 for the debris removal work. However, the contractor’s
billings for mulching and disposing of the vegetative debris was based on the total 121,422


www.oig.dhs.gov                              3	                                            DA-13-16

                             OFFICE OF INSPECTOR GENERAL 

                                    Department of Homeland Security



cubic yards of debris collected, which included the 9,292 cubic yards of construction and
demolition debris that was not reduced. Therefore, we question $81,708 of charges incorrectly
billed by the contractor, which consists of $28,805 for mulching ($3.10 per cubic yard ×
9,292 cubic yards) and $52,903 for disposal ($7.75 per cubic yard × the reduced volume of
6,826.19 cubic yards).

City officials disagreed with the finding, but did not provide us with adequate documentation to
cause us to change our position.


                                     RECOMMENDATIONS

We recommend that the Regional Administrator, FEMA Region IV:

Recommendation #1: Disallow $45,372 for insurance recoveries not credited to FEMA projects
unless the City can provide additional evidence showing that the insurance allocation was
correct (finding A).

Recommendation #2: Disallow $2,168 for Federal Highway Administration proceeds not
credited to FEMA Project 57 unless the City can provide additional evidence showing that the
Federal Highway Administration funds should not be allocated to the FEMA project (finding A).

Recommendation #3: Disallow $81,708 of unsupported contract charges billed for debris
removal activities unless the City can provide additional evidence supporting those charges
(finding B).


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with City, State, and FEMA officials during our fieldwork.
We also provided a draft report in advance to FEMA, State and City officials, and discussed it at
the exit conference held on March 25, 2013. City officials partially agreed with our findings and
recommendations. Their comments, where appropriate, are included in this report.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for each recommendation. Also, please include responsible parties
and any other supporting documentation necessary to inform us about the current status of the
recommendation. Until we receive and evaluate your response, the recommendations will be
considered open and unresolved.




www.oig.dhs.gov                             4                                            DA-13-16

                             OFFICE OF INSPECTOR GENERAL 

                                    Department of Homeland Security



Consistent with our responsibility under the InspectorfGeneralfAct, we will provide copies of our
report to appropriate congressional committees with oversight and appropriation responsibility
over the Department of Homeland Security. We will post the report on our website for public
dissemination.

Major contributors to this report are David Kimble, Eastern Regional Audit Director;
William Johnson, Audit Manager; and Oscar Andino, Auditor-in-Charge.

Please call me with any questions at (202) 254-4100, or your staff may contact David Kimble,
Eastern Regional Audit Director, at (404) 832-6702.




www.oig.dhs.gov                             5                                            DA-13-16

                            OFFICE OF INSPECTOR GENERAL 

                                  Department of Homeland Security



                                                                                     Exhibit

                               Schedule of Projects Audited

                              Insurance        Duplication   Unsupported      Total
   Project     Award         Recoveries        of Benefits       Costs       Amount
  Number      Amount         (Finding A)       (Finding A)    (Finding B)   Questioned
Small:
    7494          $24,893         $     0               $0             $0            0
    8033            9,240               0                0              0            0
    7372           14,733          10,362                0              0       10,362
    7498           22,569          15,362                0              0       15,362
    7677           10,817           5,585                0              0        5,585
    7864           17,143          14,063                0              0       14,063
Large:
    8040         62,500
    2629        425,297                 0                0              0            0
     54         190,524                 0                0              0            0
     57       1,762,888                 0            2,168         81,708       83,876
    Total    $2,540,604           $45,372           $2,168       $ 81,708     $129,248




www.oig.dhs.gov                            6                                        DA-13-16

                           OFFICE OF INSPECTOR GENERAL 

                                  Department of Homeland Security



                                                                        Appendix

                                    Report Distribution

Department of Homeland Security

Secretary
Chief Financial Officer
Under Secretary for Management
Acting Chief Privacy Officer
Audit Liaison, DHS

Federal Emergency Management Agency

Administrator
Chief of Staff
Chief Financial Office
Chief Counsel
Director, Risk Management and Compliance
Audit Liaison, FEMA Region IV
Audit Liaison, FEMA (Job Code G-12-030)

State

Director, Florida Division of Emergency Management
State Auditor, Florida

Subgrantee

Comptroller, City of Palm Beach Gardens

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Senate Committee on Appropriations, Subcommittee on Homeland Security
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations, Subcommittee on Homeland Security
House Committee on Homeland Security
House Committee on Oversight and Government Reform



www.oig.dhs.gov                           7                              DA-13-16

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
